           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


          ACCURACY OF THE
  SOCIAL SECURITY ADMINISTRATION’S
             NUMIDENT


     October 2012   A-08-12-11280




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      October 3, 2012                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Accuracy of the Social Security Administration’s Numident (A-08-12-11280)


           OBJECTIVE
           Our objective was to assess the accuracy of the Social Security Administration's (SSA)
           Numident fields that are relied on by E-Verify.

           BACKGROUND
           Since 1936, SSA has assigned over 471 1 million Social Security numbers (SSN) for the
           primary purpose of accurately reporting and recording the earnings of people who work
           in jobs covered by Social Security. 2 When SSA assigns an SSN to an individual, it
           creates a master record of relevant information about the numberholder in its Numident.
           The Numident includes such information as the numberholder’s name, date of birth,
           place of birth, parents’ names, citizenship status, and date of death (if applicable). It
           also contains the office where the SSN application was processed. 3

           It is essential that the Numident be as accurate and complete as possible because SSA
           provides a number of verification services 4 that allow matching of names and SSNs with
           SSA’s records. E-Verify (formerly Basic Pilot) is a Department of Homeland Security




           1
               The number was obtained from SSA’s June 10, 2012 statistics.
           2
               Social Security Act § 205, 42 U.S.C. § 405.
           3
            The Numident record for each numberholder also identifies (1) any changes to the original information
           provided by the numberholder (for example, name changes and revisions to citizenship status) and (2) an
           account of all replacement SSN cards obtained.
           4
            SSA provides verification services such as the Consent Based SSN Verification Service, a verification
           service available for a fee to enrolled private companies and Federal, State, and local government
           agencies; and its SSN Verification Service, which employers can use to improve their wage-reporting
           process by verifying employees’ names and SSNs.
Page 2 - The Commissioner


(DHS) employment eligibility verification program supported by SSA. The purpose of
E-Verify is to assist employers in verifying the employment eligibility of newly hired
employees. See Appendix B for information on E-Verify.

In 2006, we reviewed SSA’s Numident and determined that the information it contained
was generally accurate. 5 However, we estimated that discrepancies in approximately
4.1 percent 6 of the Numident records could have resulted in incorrect feedback when
submitted through E-Verify. 7 For example, our review showed that the Numident
records contained discrepancies in numberholders’ names, dates of birth, citizenship
status, and/or death indications. Because our tests included SSNs that SSA had
assigned since 1936, we recognized that some numberholders would no longer be
working and would not attempt to correct their SSA and/or immigration records. We
also recognized that some inaccuracies were due to numberholders who did not update
their records with SSA.

SCOPE AND METHODOLOGY
To achieve our audit objective, we identified a population of approximately 1.3 million
original SSNs processed and assigned in Fiscal Year (FY) 2011. We excluded
replacement SSN applications and original SSNs processed through SSA’s
Enumeration at Entry and Birth processes. 8 We focused on original SSNs processed by
SSA staff because the Agency fully implemented its Social Security Number Application
Process (SSNAP) in February 2010. SSA designed SSNAP to aid in reinforcing its
enumeration policies and standardizing data collection.

Our population also included SSNs processed through SSA’s FALCON Data Entry
System (FALCON). FALCON is one of the data entry systems SSA uses to correct or
maintain beneficiary and recipient records in its systems. For example, SSA uses
FALCON, instead of SSNAP, to make Numident corrections and process SSN
applications when the numberholder has a religious or cultural objection to the original
number assigned them.




5
 SSA OIG, Congressional Response Report: Accuracy of the Social Security Administration’s Numident
File (A-08-06-26100), December 2006, page 5. We conducted this review at the request of the House
Committee on Ways and Means, Subcommittee on Social Security.
6
 We developed this estimate using a stratified sampling approach for our three populations (native-born
U.S. citizens, foreign-born U.S. citizens, and non-U.S. citizens).
7
    At the time of our 2006 review, E-Verify was known as Basic Pilot.
8
  The Enumeration at Entry process allows immigrants to apply for an original or replacement SSN card
on Department of State (DoS) Form DS-230, Application for Immigrant Visa and Alien Registration, and
be issued with the card once lawfully admitted as permanent residents by DHS. Enumeration at Birth is a
program that allows parents to complete SSN applications for their newborns as part of hospitals’ birth
registration process. Both processes eliminate a visit to a field office.
Page 3 - The Commissioner


The following table shows our population based on citizenship.

                   Table 1: FY 2011 Audit Population by Citizenship 9
                       Category                 Number of SSNs            Percent
              Native-Born U.S. Citizens             112,033                  8.4
              Foreign-Born U.S. Citizens             73,495                  5.5
              Non-U.S. Citizens 10                1,154,452                 86.1
                 Total                            1,339,980                100.0

From our population, we randomly selected a sample of 250 SSNs. For the first
50 SSNs, we compared the SSNAP record to each numberholder’s Numident to ensure
the data matched. To determine the accuracy of SSA’s Numident data (names, dates
of birth, and citizenship or alien status), we attempted to verify the information each
numberholder provided SSA to obtain an SSN. We relied on State Bureaus of Vital
Statistics (BVS), DoS, and DHS to verify information SSA had recorded for these
50 SSNs.

We submitted SSNs through E-Verify to determine whether discrepancies between
SSA’s Numident and external sources that we relied on (BVSs, DoS, and DHS) could
result in an E-Verify tentative nonconfirmation. While we found discrepancies in the
Numident, these errors did not result in incorrect feedback when submitted through
E-Verify. For those Numident fields that E-Verify relies on, we found the data reliable
for all 50 cases. As such, we did not extend testing to the full sample of 250.

In our previous review, we determined that E-Verify had no control requiring additional
investigation or contact with numberholders aged 90 and older before confirming
employment eligibility. As such, we reviewed the 250 sample SSNs and identified
1 case where the numberholder was age 90. We submitted this SSN through E-Verify
to determine whether DHS had implemented an alert that would notify employers when
they submitted information that indicated an employee’s age was outside of a
predetermined range.

Additionally, we reviewed SSA’s Numident and Master Beneficiary and Supplemental
Security Records to determine whether the Agency had recorded a date of death for
any of the sample 50 or the numberholder who was age 90. We did not identify any
dates of death. Finally, because DHS administers the E-Verify program, we plan to
share our report with its Inspector General. See Appendix C for more information
regarding our scope and methodology.




9
 The population does not include original SSNs processed through SSA’s Enumeration at Birth or Entry
processes or replacement SSNs. In addition, the numbers and percentages found in our audit population
do not necessarily reflect that of the replacement card population.
10
 SSA’s records did not contain citizenship codes for 15 foreign-born numberholders. Accordingly, we
were unable to determine their citizenship status.
Page 4 - The Commissioner


Underlying Assumptions

In performing our tests, we could not predict what proof of identity and work
authorization documents a numberholder would present to an employer. Therefore, we
made the following assumptions.

•     The information the numberholder provided SSA would be the same data provided
      to an employer.
•     The information provided to us by a BVS, DoS, or DHS was correct. 11

RESULTS OF REVIEW
We determined that data fields E-Verify relied on were generally accurate for Numidents
SSA established in FY 2011. While we identified a few discrepancies in numberholders’
names, there were fewer than we identified in our previous review. In addition, these
discrepancies did not result in incorrect feedback when submitted through E-Verify.

We commend the Agency on the accuracy of its FY 2011 Numident data because
quality in the enumeration process enhances the integrity of SSA’s SSN and name
verifications. Although administration of E-Verify is DHS’ responsibility, we believe it is
important to restate a limitation we identified previously with E-Verify. That is, E-Verify
will confirm numberholders’ employment eligibility, regardless of their age, as long as
the SSN, name, date of birth, and citizenship/alien status agree with, or there are no
death indicators in, SSA and/or DHS records. As discussed in our prior audits and
investigations, unscrupulous individuals may use individuals’ personal information,
including their SSNs, for employment purposes.

As stated in our 2006 report, 12 we made several assumptions in performing our tests
and cannot predict the types of documentation each of the sampled numberholders
might present to an employer when they are attempting to prove their identities and
authorization to work in the United States—as the current process allows a number of
varying sources of this information. 13 Accordingly, our audit conclusions only pertain to
the accuracy of SSA’s Numident file when compared to (1) information numberholders
provided to SSA when applying for their original Social Security cards and, if applicable,
(2) DHS records.

11
  SSA relies on documents individuals present during the SSN application process to record their names,
dates of birth, and citizenship or legal alien status in SSNAP. SSA, POMS, RM 10210.020
(October 13, 2011).
12
     Congressional Response Report, supra note 5, at page 4.
13
   Up to 29 documents issued by various Federal, State, and local awarding agencies are valid for
completing the Employment Eligibility Verification (Form I-9), which is legally required for every newly
hired employee. Acceptable records include (1) DHS identity and work authorization documents; (2) U.S.
passports; (3) SSN cards; (4) State and local government records; and (5) records from schools, medical
facilities, and the military. See 8 C.F.R. § 274a.2.
Page 5 - The Commissioner


Numident Records Established in FY 2011 Generally Accurate

Based on the results of our current review, we believe SSA’s Numident file records
established in FY 2011 were generally accurate. Of the 50 Numident records reviewed,
we identified 3 that contained variances in the spelling or placement of the
numberholder’s name when compared to DHS records. In one case, SSA recorded the
name “Bravo” as “Brovo” on the Numident record. In the other two cases, DHS had
multiple names recorded in the first or last name field, but the Numident only contained
one name in each position. After testing the names from the Numident and DHS
records, E-Verify returned a “confirmation” for each SSN tested. While SSA may have
misspelled or did not input the complete name for these numberholders, E-Verify data
routines allow for some name variances. As indicated above, these discrepancies did
not result in an E-Verify tentative nonconfirmation.

E-Verify Limitations

We commend the Agency on the accuracy of its FY 2011 Numident data. However, we
believe it important to reiterate a limitation we identified previously with E-Verify,
although administration of E-Verify is DHS’ responsibility.

We determined that E-Verify confirms employment eligibility, without some additional
notification to, and attestation from, the employer for numberholders who are younger or
older than a predetermined age. That is, unless the Numident contains a death
indicator, E-Verify will confirm these numberholders’ employment eligibility as long as
their SSN, name, date of birth, and citizenship/alien status agree with SSA and DHS
records. As revealed in our prior audits and investigations, unscrupulous individuals
may use individuals’ personal information, including their SSNs, for employment
purposes.

Of the SSNs reviewed, we identified one numberholder who was age 90 and
seven numberholders who were under age 7. We tested the eight records through
E-Verify, and all confirmed eligibility for employment. While we understand there are
increased numbers of individuals past retirement age in the workforce and some
children under age 7 may work, we believe E-Verify needs a front-end control that
requires employers to affirm that date of birth information submitted for employees
whose ages are outside of a predetermined range is correct before E-Verify confirms
employment eligibility.

In 2006, 14 we identified this vulnerability regarding the aged in E-Verify and emphasized
in our report that E-Verify should send an alert notice to employers when an employee
claims to have been born outside of a predetermined age. We also stated an alert
would ensure that (1) no employee attempts to misuse the identity of an aged person
and (2) the employer does not inadvertently or intentionally overlook the misuse of the
aged person’s name, SSN, and date of birth. In its informal comments to our
2006 report, SSA pointed out that it is illegal for employers to discriminate based on
14
     Congressional Response Report, supra note 5, at pages 8 and 13.
Page 6 - The Commissioner


age, and use of an indicator for individuals outside a specified age would require a new
or amended routine under the Privacy Act of 1974 to permit disclosure. SSA also
pointed out that DHS Form I-9 already requires that employers certify that the
documents submitted by an employee appear to be genuine and relate to that
employee. We are sensitive to the possibility of age discrimination and understand the
legal and contractual modifications that would be required with implementing an alert to
employers requiring them to certify that the submitted age of certain employees is
correct. However, we would be remiss if we did not point out this vulnerability in the
current process.

CONCLUSION AND RECOMMENDATION
We commend the Agency on the accuracy of the FY 2011 data we tested in the
Numident. We found discrepancies in a few numberholders’ names, but E-Verify data
routines allow for some variances, and it confirmed these individuals’ work eligibility.
However, E-Verify had no control requiring additional review or employer certification of
data submitted for numberholders who are young children or aged before E-Verify
confirmed their work eligibility. Accordingly, we recommend that SSA encourage DHS,
or assist DHS if appropriate, to enhance E-Verify through implementation of a front-end
system alert that is sent to employers who must attest to the accuracy/truthfulness of
information they submit for employees under or over a predetermined age before
E-Verify confirms these employees’ work eligibility.

AGENCY COMMENTS
SSA agreed with our recommendation. See Appendix D for the Agency’s comments.

OTHER MATTER
Evidentiary Documentation Not Always Recorded

During our review, we determined that two SSN applications processed in FALCON in
FY 2011 did not have any documentary evidence recorded. FALCON is one of the data
entry systems that SSA uses to correct erroneous data identified while maintaining
beneficiary and recipient records in its systems. SSA policy generally requires that field
office personnel complete a paper SSN application before processing SSNs through
FALCON. Policy also requires that SSA personnel annotate on the application the
evidence applicants submitted.

For one sample SSN, neither of SSA’s enumeration systems nor the paper SSN
application reflected the evidentiary documents the applicant presented to SSA. When
we discussed this issue with SSA personnel, they told us that FALCON does not
contain a field that permits staff to record documentary evidence. However, SSA stated
that field office personnel should have annotated evidence presented in the “Evidence
Submitted” block of the paper SSN application.
Page 7 - The Commissioner


In the other SSN case, SSA told us that it did not process a paper SSN application
because policy does not require one when staff discover and correct a keying error. 15
However, this process resulted in SSA’s enumeration system overwriting data on the
numberholder’s Numident, which in this instance was originally created in 1966.
Because SSA retained paper information regarding the correction for only 60 days, the
Agency could not confirm the data field it corrected. 16

If SSA does not comply with policy and record evidence when it uses FALCON to
process an SSN application, an audit trail does not exist that validates the legitimacy of
such a transaction. In addition, when SSA uses FALCON, Numident data is
overwritten, which diminishes the integrity of the enumeration process. We discussed
these findings with SSA and the Agency told us that it is currently in the process of
identifying various enumeration workloads processed in FALCON that it can incorporate
into SSNAP in FYs 2013 and 2014. We are encouraged that SSA continues to enhance
its enumeration process. We will monitor the Agency’s progress in incorporating
FALCON enumeration workloads into SSNAP and may make further recommendations
in future audits, as necessary.




                                                   Patrick P. O’Carroll, Jr.




15
     According to SSA, keying errors include a misspelled name or incorrect date of birth.
16
  According to SSA, it now has the capability to store evidentiary documentation indefinitely for those
SSNs processed through FALCON.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – E-Verify
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                 Appendix A

Acronyms
BVS           Bureau of Vital Statistics
C.F.R.        Code of Federal Regulations
DHS           Department of Homeland Security
DoS           Department of State
FALCON        FALCON Data Entry System
FY            Fiscal Year
OIG           Office of the Inspector General
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSN           Social Security Number
SSNAP         Social Security Number Application Process
Stat.         Statute
U.S.          United States
U.S.C.        United States Code


Forms
DS-230        Application for Immigrant Visa and Alien Registration
Form I-9      Employment Eligibility Verification
Form I-94     Arrival/Departure Record
                                                                                 Appendix B

E-Verify
E-Verify (formerly Basic Pilot) is a Department of Homeland Security (DHS) initiative
supported by the Social Security Administration (SSA) through a Memorandum of
Understanding between the two agencies. 1 E-Verify assists employers in verifying the
employment eligibility of newly hired employees. Participating employers register online
with DHS to use the Internet-based system.

The employer must complete a DHS-issued Form I-9, Employment Eligibility Verification,
for each employee and enter elements of these data into E-Verify within 3 days of hiring
the employee. The information entered includes the employee's Social Security number
(SSN), name, date of birth, and whether the new hire indicated he/she was a U.S. citizen
and, if not, the Alien Registration or I-94 admission number. 2

E-Verify first checks the information entered against SSA's Numident to verify the name,
SSN, and date of birth of newly hired employees, regardless of citizenship. If that
information matches the Numident and the employee indicates that he/she is a U.S.
citizen, E-Verify confirms employment eligibility. However, if the information matches
and the employee indicates that he/she is a lawful permanent resident or an alien
authorized to work, E-Verify checks the data against DHS' databases. In addition, for all
naturalized citizens whose citizenship status SSA cannot confirm, but whose other data
matched SSA’s records, DHS will determine their current work authorization status.

E-Verify sends employers a message indicating whether the employee is
employment-authorized or there is a mismatch with SSA or DHS data. The employer
will receive notification of "SSA Tentative Nonconfirmation" of employment eligibility
when the SSN, name, or date of birth does not match the information in SSA's database
or if a death indicator is present. The employer will receive notification of "DHS
Tentative Nonconfirmation" of employment eligibility when DHS' databases do not show
the newly hired noncitizen as authorized for employment. In these cases, the employer
asks the employee whether he/she wishes to contest the Tentative Nonconfirmation. If
contested, the employee must contact SSA or DHS within 8 Government working days
of the notification. After the employee contacts SSA or DHS to correct the record, the
employer resubmits the query through E-Verify. If E-Verify does not confirm
employment eligibility after the employer resubmits the query, the employer may
terminate the new hire.



1
 Illegal Immigration Reform and Immigrant Responsibility Act of 1996, Pub. L. No. 104-208, §§ 401-405,
110 Stat. 3009-546, 655-656 (codified at 8 U.S.C. § 1324a note).
2
    The I-94 admission number is on DHS’ Form I-94 (Arrival/Departure Record).
                                                                                    Appendix C

Scope and Methodology
To accomplish our objective, we performed the following steps.

•     Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
      and procedures as well as other relevant Federal laws and regulations.

•     Reviewed Office of the Inspector General, Government Accountability Office, and
      Department of Homeland Security (DHS) reports and other relevant documents.

•     Identified a population of approximately 1.3 million original Social Security numbers
      (SSN) that SSA processed and assigned in Fiscal Year 2011. We excluded
      replacement SSN applications and original SSNs processed through SSA’s
      Enumeration at Entry and Birth processes. 1 We focused on original SSNs
      processed by SSA staff because the Agency fully implemented its Social Security
      Number Application Process (SSNAP) in February 2010. SSA designed SSNAP to
      aid in reinforcing its enumeration policies and standardizing data collection.

      Our population also included SSNs processed through SSA’s FALCON Data Entry
      System (FALCON). 2 FALCON is one of the data entry systems SSA uses to correct
      or maintain beneficiary and recipient records in its systems. For example, SSA uses
      FALCON, instead of SSNAP, to make Numident corrections and process SSN
      applications when the numberholder has a religious or cultural objection to the
      original number assigned to him/her.

•     Randomly selected a sample of 250 SSNs from our population. For the first
      50 SSNs, we compared the SSNAP record to each numberholder’s Numident 3 to
      ensure the data matched. To determine the accuracy of SSA’s Numident data
      (names, dates of birth, citizenship or alien status), we attempted to verify the
      information each numberholder provided SSA to obtain an SSN. Accordingly, we
      verified


1
  The Enumeration at Entry process allows immigrants to apply for an original or replacement SSN card
on Department of State (DoS) Form DS-230, Application for Immigrant Visa and Alien Registration, and
be issued with the card once lawfully admitted as permanent residents by DHS. Enumeration at Birth is a
program that allows parents to complete SSN applications for their newborns as part of hospitals’ birth
registration process. Both processes eliminate a visit to a field office.
2
    When SSA uses FALCON, it requires a paper SSN application to be created and filed.
3
 The Numident includes such information as the numberholder’s name, date of birth, place of birth,
parents’ names, citizenship status, date of death (if applicable) and the office where the SSN application
was processed.

                                                    C-1
     foreign-born noncitizens’ names, dates of birth, and alien status with DHS;

     foreign-born U.S. citizens’ names, dates of birth, and citizenship with DoS; and

     native-born U.S. citizens’ names, dates of birth, and citizenship with State
      Bureaus of Vital Statistics (BVS).

•   Submitted SSNs through E-Verify to determine whether discrepancies between
    SSA’s Numident and external sources that we relied on (BVSs, DoS, and DHS)
    could result in an E-Verify tentative nonconfirmation.

    While we found discrepancies in the Numident, they did not result in incorrect
    feedback when submitted through E-Verify. For those Numident fields that E-Verify
    relies on, we found the data reliable for all 50 cases. As such, we did not extend
    testing to the full sample of 250.

•   Tested E-Verify to determine whether it sent an additional contact or notice to
    employers for numberholders who are younger or older than a predetermined age.
    We submitted SSNs of individuals who were age 90 or older and age 7 or younger.
    We did not have any numberholders age 90 or older in the first 50 SSNs. As such,
    we reviewed the 250 sample SSNs and identified 1 case where the numberholder
    was age 90. We submitted this SSN through E-Verify only to test whether DHS had
    implemented a control such as issuing an alert that would notify employers when
    they submitted information that indicated an employee’s age was outside of a
    predetermined range.

•   Reviewed SSA’s Numident and Master Beneficiary and Supplemental Security
    Records to determine whether the Agency had recorded a date of death for any of
    the sample 50 or the numberholder who was age 90. We did not identify any dates
    of death.

Underlying Assumptions

In performing our tests, we could not predict what proof of identity and employment
eligibility a numberholder would present to an employer. Therefore, we made the
following assumptions.

•   The information the numberholder provided SSA would be the same data provided
    to an employer.

•   The information provided to us by a BVS, DoS, or DHS was correct. 4



4
 SSA relies on documents individuals present during the SSN application process to record their names,
dates of birth, and citizenship or legal alien status in SSNAP. SSA, POMS, RM 10210.020
(October 13, 2011).

                                                 C-2
Our review of internal controls was limited to obtaining an understanding of SSA’s SSN
assignment process, the Numident, and E-Verify as well as conducting the tests
outlined above. The objective of our review was to access the accuracy of SSA’s
Numident fields that are relied on by E-Verify. Accordingly, we determined that the
Numident file information was generally reliable. However, we did not test the
information provided by DHS and DoS. Accordingly, we cannot opine to its reliability.
Any conclusions discussed in this report, which were predicated on information provided
by DHS or DoS, have been annotated with the appropriate qualification.

The SSA entities audited were the Offices of the Deputy Commissioners for Operations
and Systems and the Office of Income Security Programs under the Office of the
Deputy Commissioner for Retirement and Disability Policy. We conducted this audit
between March and May 2012 in Birmingham, Alabama. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.




                                          C-3
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 14, 2012                                                      Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Accuracy of the Social Security Administration’s
           Numident” (A-08-12-11280)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“ACCURACY OF THE SOCIAL SECURITY ADMINISTRATION’S NUMIDENT”
(A-08-12-11280)


Recommendation 1

SSA encourage DHS, or assist DHS if appropriate, to enhance E-Verify through implementation
of a front-end system alert that is sent to employers who must attest to the accuracy/truthfulness
of information they submit for employees under or over a predetermined age before E-Verify
confirms these employees’ work eligibility.

Response

We agree. Through our bi-monthly meetings, we will continue to encourage the Department of
Homeland Security (DHS) to create a front-end edit requiring employers to attest to the
truthfulness/accuracy of the date of birth entered. Only DHS can implement modifications to the
E-Verify system. We suggest that the Office of Inspector General share a copy of its findings
with DHS. We consider this recommendation closed for tracking purposes.




                                               D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Atlanta Audit Division

   Theresa Roberts, Audit Manager, Birmingham Office of Audit

Acknowledgments

In addition to those named above:

   Kozette Todd, Senior Auditor

   Sharice Thompson, Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-08-12-11280.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
